TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Disaster Recovery Testing Is Being
                     Adequately Performed, but Problem
                   Reporting and Tracking Can Be Improved



                                            May 3, 2012

                              Reference Number: 2012-20-041




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                HIGHLIGHTS


DISASTER RECOVERY TESTING IS                        WHAT TIGTA FOUND
BEING ADEQUATELY PERFORMED, BUT
                                                    The IRS is adequately planning and conducting
PROBLEM REPORTING AND TRACKING                      disaster recovery tests of critical current
CAN BE IMPROVED                                     production environment computer systems and
                                                    is performing disaster recovery exercises and
                                                    tests on the Customer Account Data Engine 2
Highlights                                          system as it is being developed.

Final Report issued on May 3, 2012                  However, the IRS can improve disaster recovery
                                                    test problem reporting and tracking. TIGTA
Highlights of Reference Number: 2012-20-041         found that problem tickets used by the IRS for
to the Internal Revenue Service Chief               identifying, resolving, and tracking problems
Technology Officer.                                 encountered during the tests were not created
                                                    for several problems. In addition, reports
IMPACT ON TAXPAYERS                                 prepared by the IRS during the disaster recovery
                                                    tests used to track the progress and problems it
Disaster recovery planning is a coordinated         encountered in recovering systems did not have
strategy for recovering computer systems            complete information on many of the processes
following a disruption. By testing disaster         run and problems identified during the tests.
recovery plans, recovery problems can be            Finally, the IRS did not have a process for
identified and corrected before an actual           closely and formally tracking the implementation
disruption occurs. The IRS is adequately            of the less serious recommendations it made at
planning and conducting disaster recovery tests,    the conclusion of the disaster recovery tests.
but IRS reporting of problems identified during     During the course of the audit, TIGTA auditors
the tests and the tracking of progress to           informed the IRS of the need to track these
implement recommendations made at the               recommendations, and the IRS recently
conclusion of the tests need to be improved.        developed a tracking worksheet.
Effective disaster recovery capabilities are
critical to ensure that key information systems     WHAT TIGTA RECOMMENDED
can be recovered with minimal disruption to the
critical IRS business processes they support.       TIGTA recommended that the Associate Chief
The data and services provided by these             Information Officer, Cybersecurity, 1) revise
systems are also needed by Congress, the            reports the IRS prepares during disaster
Department of the Treasury, tax professionals,      recovery tests to include required entries for
taxpayers, and other Government agencies.           references to problem tickets and 2) create a
                                                    process for reviewing the completeness of
WHY TIGTA DID THE AUDIT                             problem tickets and reports prepared during the
                                                    tests to help ensure that they contain complete
During this audit, TIGTA observed and/or            information.
reviewed IRS disaster recovery tests. The IRS
is required to conduct disaster recovery tests on   In its response to the report, the IRS agreed with
its most critical computer systems. Disaster        TIGTA’s recommendations. The IRS 1) revised
recovery testing is conducted to test the IRS’s     its disaster recovery test reports to require
ability to recover major computer systems at one    entries for references to problem tickets and
Computing Center to another Computing Center.       2) created a process for reviewing the
This review was requested by the Cybersecurity      completeness of problem tickets and reports.
organization and is also part of our statutory
requirements to annually review the adequacy
and security of IRS technology.
                                                DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 May 3, 2012


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Disaster Recovery Testing Is Being Adequately
                                 Performed, but Problem Reporting and Tracking Can Be Improved
                                 (Audit # 201120024)

 This report presents the results of our review of disaster recovery testing activities. The overall
 objective was to observe Internal Revenue Service (IRS) disaster recovery testing to determine
 whether the IRS is adequately testing its capability to recover major computer systems from one
 Computing Center to another and whether systems can be successfully recovered. This review
 was requested by the Cybersecurity organization.1 This review addresses the major management
 challenge of Security for Taxpayer Data and Employees, is part of our statutory requirements to
 annually review the adequacy and security of IRS technology, and is included in our Fiscal Year
 2012 Annual Audit Plan.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or Alan Duncan,
 Assistant Inspector General for Audit (Security and Information Technology Services), at
 (202) 622-5894.




 1
     See Appendix IV for a glossary of terms.
                          Disaster Recovery Testing Is Being Adequately Performed,
                            but Problem Reporting and Tracking Can Be Improved




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Disaster Recovery Tests Are Being Adequately Planned
          and Conducted, and Exercises and Tests Were Performed
          During the Development of the Customer Account Data
          Engine 2 System ........................................................................................... Page 3
          Disaster Recovery Test Problem Reporting and Tracking
          Can Be Improved .......................................................................................... Page 7
                    Recommendations 1 and 2: .............................................. Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Glossary of Terms ................................................................ Page 16
          Appendix V – Management’s Response to the Draft Report ....................... Page 18
         Disaster Recovery Testing Is Being Adequately Performed,
           but Problem Reporting and Tracking Can Be Improved




                      Abbreviations

CADE 2          Customer Account Data Engine 2
IMF             Individual Master File
IRS             Internal Revenue Service
ITAMS           Information Technology Asset Management System
KISAM           Knowledge, Incident/Problem, Service and Asset Management
NIST            National Institute of Standards and Technology
                       Disaster Recovery Testing Is Being Adequately Performed,
                         but Problem Reporting and Tracking Can Be Improved




                                              Background

The ability of the Internal Revenue Service (IRS) to carry out its mission and provide key
taxpayer service and enforcement operations is heavily dependent on an extensive network of
computer systems spread across the country. During Fiscal Year1 2010, the IRS reported that its
computer systems processed more than 230 million returns, provided more than $467 billion in
refunds, collected more than $2.3 trillion in taxes (93 percent of the Federal Government’s
receipts), received more than 305 million visits to its websites, and received more than
98 million electronically filed individual income tax returns. In addition to the IRS needing
these systems to administer the Nation’s tax system, data and services provided by these systems
are needed by Congress, the Department of the Treasury, tax professionals, taxpayers, and other
Government agencies.
Significant events, such as the terrorist attacks on September 11, 2001, and Hurricane Katrina in
August 2005, have emphasized the need for organizations to have plans in place that will ensure
essential operations can continue during a wide range of emergencies. Disaster recovery is an
organization’s ability to respond to a disruption in services by implementing a plan to restore
critical business functions within the stated disaster recovery goals. Disaster recovery planning2
is a coordinated strategy involving plans, procedures, and technical measures that enable the
recovery of information systems, computer operations, and data. If the IRS does not sufficiently
test disaster recovery plans in accordance with policies and guidance, the risk increases that
critical systems and the business processes supported by these systems may not be successfully
recovered in a timely manner after a disruption. This would severely impact the ability of the
IRS to carry out its mission. Testing of disaster recovery capabilities is a way of identifying
deficiencies in disaster recovery plans, procedures, and training. By effectively testing disaster
recovery plans, problems can be identified and corrected before an actual disruption occurs.
The Federal Information Security Management Act of 20023 and Office of Management and
Budget mandates require agencies to establish an information technology disaster recovery
planning and testing program to ensure that computer systems can be recovered in a timely
manner after a disruption. Pursuant to its responsibilities under the Federal Information Security
Management Act, the National Institute of Standards and Technology (NIST) developed
standards and guidelines that Federal agencies are required to use in developing, conducting, and
evaluating disaster recovery tests. The Department of the Treasury requires bureaus to develop


1
  See Appendix IV for a glossary of terms.
2
  Information technology disaster recovery planning is also referred to as contingency planning. Because
universally accepted definitions are not available, throughout this report we used the term disaster recovery.
3
  44 U.S.C. §§ 3541 – 3549.
                                                                                                                 Page 1
                      Disaster Recovery Testing Is Being Adequately Performed,
                        but Problem Reporting and Tracking Can Be Improved



and implement a robust, cost-effective information technology security program that includes
disaster recovery testing.
NIST and IRS policies require the IRS to conduct disaster recovery testing on its most critical
computer systems, while less critical systems receive less rigorous disaster recovery exercises.
Disaster recovery testing is conducted in as close to an operational environment as possible using
components or systems used to conduct daily operations. Disaster recovery testing is designed to
evaluate the IRS’s readiness to cutover, relocate, restore, or rebuild its major systems and
applications operating at one Computing Center to another Computing Center. To plan for a
disaster recovery test, objectives and scope are defined and checklists, test plans, and other test
documentation materials are developed. As the test is conducted, observations, notes, and forms
are completed. At the end of a disaster recovery test, results are recorded, lessons learned are
documented, corrective action plans are initiated, and disaster recovery plans are updated.
In a previous audit,4 we reviewed the IRS’s progress in completing its corrective actions on the
seven components of its disaster recovery material weakness5 and determined that corrective
actions for the component on exercising and testing disaster recovery plans were being
adequately completed. During this disaster recovery testing audit, we observed and/or reviewed
IRS disaster recovery tests that took place in July, August, and October 2011.
This review was performed at the Cybersecurity organization’s Disaster Recovery Testing
Exercise and Evaluation offices in Martinsburg, West Virginia, and Memphis, Tennessee, during
the period August 2011 through January 2012. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




4
  Treasury Inspector General for Tax Administration, Ref. No. 2011-20-060, Corrective Actions to Address the
Disaster Recovery Material Weakness Are Being Completed (June 2011).
5
  In March 2005, the IRS declared its disaster recovery program a material weakness in accordance with the Federal
Managers’ Financial Integrity Act of 1982 [31 U.S.C. §§ 1105, 1113, 3512 (2000)]. The Federal Managers’
Financial Integrity Act requires each Federal agency to conduct annual evaluations of its systems of internal
accounting and administrative control. Each agency is also required to prepare an annual report for Congress and
the President that identifies material weaknesses and the agency’s corrective action plans and schedules.
                                                                                                           Page 2
                        Disaster Recovery Testing Is Being Adequately Performed,
                          but Problem Reporting and Tracking Can Be Improved




                                   Results of Review

Disaster Recovery Tests Are Being Adequately Planned and
Conducted, and Exercises and Tests Were Performed During the
Development of the Customer Account Data Engine 2 System
NIST and IRS disaster recovery testing policies and requirements cite the need to adequately
plan and conduct disaster recovery tests and to perform disaster recovery exercises and tests as
systems are being developed. The IRS is adequately planning and conducting disaster recovery
tests of critical current production environment computer systems and is performing disaster
recovery exercises and tests on the Customer Account Data Engine 2 (CADE 2) system as it is
being developed.

Disaster recovery capability of critical current production environment computer
systems is being adequately tested
NIST Special Publication 800-84, Guide to Test, Training, and Exercise Programs for
Information Technology Plans and Capabilities, cites the need to adequately plan disaster
recovery tests. During the planning phase, the disaster recovery test is designed and test
documentation is prepared. Appropriate planning meetings are held, the scope and objectives are
established, specific tests and test cases are developed, the use of tools is determined, and test
plans and guides are developed. If feasible, the plan should require that the test be done using
components or systems used to conduct daily operations. To help plan the disaster recovery test,
the IRS has created a Disaster Recovery Test Plan Template. This template contains the test’s
general objectives; general information such as the dates, call in number, and scenario; the
results of any planning meetings that were held; test schedule and test scope; recovery time
objectives; test participants; and responsibilities for test execution and summarization. To help
plan the test cases, the IRS has created the Test Case Daily Action Report Template, which is
prepared for each system that will be tested. This template contains the overall test objectives
for each system to be recovered, the specific steps that will be performed for each system, and
test cases for each system specifying equipment and personnel needs, goals, success criteria, and
deliverables.
NIST Special Publication 800-84 and Internal Revenue Manual 10.8.62, Information Technology
Contingency Plan and Disaster Recovery Testing, Training, and Exercise Program,6 cite the
need to adequately conduct disaster recovery tests. Disaster recovery tests begin with a scenario


6
    IRM 10.8.62 (Feb. 28, 2009).
                                                                                           Page 3
                         Disaster Recovery Testing Is Being Adequately Performed,
                           but Problem Reporting and Tracking Can Be Improved



containing the cause of the disaster, the systems and disaster recovery plans to be activated, the
name of the alternate facility, the unavailability of staff at the damaged site, and other important
information and rules on conducting the test. IRS test leaders are required to conduct at least two
status meetings with the recovery staff each day, and independent observers are assigned to
review and record recovery activities. Only the latest versions of disaster recovery plans are to
be used to recover the systems. Staff from the production site should not be allowed to assist
with recovery at the alternate site during a disaster recovery test because in a worst case real
disaster those persons might not be available. Lessons learned from previous tests are built into
subsequent tests to both improve the recovery and the testing process. As the test is conducted,
disaster recovery staff enters results of the testing into the Test Case Daily Action Report.
We determined the disaster recovery tests conducted in July, August, and October 2011 were
adequately planned. Specifically, we found:
          Disaster Recovery Test Plans were properly prepared with the test’s objectives, scope,
           systems, scenario, instructions, recovery time objectives, and other necessary
           information.
          Test Case Daily Action Reports7 were populated with the recovery activities, test cases,
           and job runs that will be tracked during the test with start and stop times.
          Systems were to be restored on actual production systems at the recovery site.
We also determined testing procedures were adequately followed for the August and
October 2011 disaster recovery tests. Specifically, we found:
          In the August 2011 test, the disaster declaration, rules, and instructions were announced.
           Because the October 2011 test was limited in scope, a disaster declaration was not
           required.
          The daily status meetings reviewed progress and discussed and resolved problems.
          The Disaster Recovery Test Plan and the Test Case Daily Action Report were used to
           track process and job runs and also to ensure test objectives for each system were
           fulfilled.
          Other testing requirements were adhered to, such as using only the latest copy of the
           disaster recovery plan, not allowing staff at the “disaster site” to participate in any
           recovery activity unless stipulated in the disaster recovery test scenarios, focusing on the
           lessons learned from the previous disaster recovery test, and Cybersecurity organization
           staff acting as an independent observer and recorder.



7
    See definition on page 8.
                                                                                                 Page 4
                   Disaster Recovery Testing Is Being Adequately Performed,
                     but Problem Reporting and Tracking Can Be Improved



Generally, systems and applications were successfully recovered within recovery time objectives
during the July and August 2011 tests. However, the recovery of a mainframe computer
experienced significant problems during the July 2011 test. Because backup tapes had not been
made, critical database subsystems could not be recovered until new backup tapes were created
by the disaster site during the test. Five application databases were not recoverable, and much of
the batch processing could not be performed.
The October 2011 test was a limited test that focused on the problems that occurred in recovering
the mainframe computer in the July 2011 test. The October 2011 test resulted in significant
improvements to the problems experienced during the July 2011 test.

CADE 2 disaster recovery exercises and tests are being performed as the system
is being developed
NIST Special Publication 800-34, Contingency Planning Guide for Federal Information Systems,
requires that initial disaster recovery exercises and tests be performed during the implementation
phase of the Software Development Life Cycle to validate Information System Contingency Plan
recovery procedures.
Disaster recovery exercises consist of Table Top Exercises and Functional Exercises. Table Top
Exercises are discussion-based (walkthrough) exercises that do not involve deploying or
recovering systems, equipment, or resources. Personnel meet to discuss their roles during an
emergency and their responses to a particular emergency. The participants validate the content
of the plan and related policies and procedures in the context of a particular emergency situation.
Functional Exercises are more extensive than Table Top Exercises, requiring the event to be
simulated. The exercises are designed to test procedures and assets involved in one or more
functional aspects of the disaster recovery plan, such as backup retrieval, reading backup data,
and validation of off-site storage.
Disaster recovery tests are conducted in as close to an operational environment as possible using
components or systems used to conduct daily operations. The scope of testing can range from
individual system components or systems to comprehensive tests of all systems and components
that support a disaster recovery plan. These tests are designed to evaluate IRS readiness to
cutover, relocate, restore, or build IRS systems. Disaster recovery tests involve activities such as
cutovers from one platform or system to another, relocation of systems, or recovery of platforms
and their hosted applications.
The CADE 2 is a vital IRS modernization effort and foundational component of the IRS’s
technology strategy that builds on the foundation of the current CADE. It is one of the IRS’s top
priority information technology investments. Its successful implementation is essential to reach
the IRS’s vision for tax administration. The CADE 2 will provide state-of-the-art individual
taxpayer account processing and technologies to improve service to taxpayers and enhance IRS
tax administration capabilities. It will provide faster refunds for millions of individual taxpayers
and faster payment postings, account updates, and taxpayer notices. The CADE 2 will integrate
                                                                                             Page 5
                    Disaster Recovery Testing Is Being Adequately Performed,
                      but Problem Reporting and Tracking Can Be Improved



the CADE and the Individual Master File (IMF) into a single taxpayer processing system. It will
also provide a single database that will improve user access to accurate and timely data. The
CADE 2 will be implemented in phases. The first phase, called Transition State 1, is scheduled
to be delivered for the 2012 Filing Season and will implement daily IMF processing. Daily
processing will provide more accurate, timely data to frontline IRS employees and is expected to
allow the IRS to update and settle accounts more quickly.
The IRS has developed a draft CADE 2 Program Disaster Recovery Design Plan. This
document shows CADE 2 disaster recovery logical design, infrastructure, cost and sizing
estimates, and other disaster recovery considerations. The CADE 2 has nine core components,
and the IRS will be implementing two new types of disaster recovery technologies for six of
them. These two new technologies are Virtual Tape Replication and Storage-Based
Asynchronous Replication.
Virtual Tape Replication, instead of traditional backup tape, will be used because the CADE 2
IMF Daily Processing core component will process IMF data daily instead of weekly. To
accommodate the backing up of IMF files that are processed daily, the IRS will implement a
disaster recovery solution using International Business Machines Corporation’s virtual tape
replication product called gridding. Gridding is a technology that makes it possible to save data
as if it were being stored on tape, although it is actually being stored on hard disk or another
medium. Each day, gridding will transmit over the network IMF daily processing data from the
Virtual Tape Library in the Martinsburg Computing Center to the Memphis Computing Center
recovery site.
International Business Machines Corporation’s Global Mirror storage-based asynchronous data
replication is a solution that the IRS will use to replicate production data that will be transferred
over the network from the Martinsburg Computing Center to the Memphis Computing Center
recovery site for six CADE 2 core components. Asynchronous replication is a technique for
replicating data between file systems in which the system being replicated can continue to be
changed without having to wait for the remote system to have recorded changes previously
transmitted by the system being replicated. An example of a CADE 2 core component that will
be replicated using Global Mirror is the CADE 2 Database Implementation, which contains IMF
data. The entire Martinsburg Computing Center CADE 2 database will initially be replicated to
the Memphis Computing Center recovery site, after which only changes made to the database
will be replicated on a daily basis.
The IRS has performed disaster recovery exercises and tests on the gridding and Global Mirror
disaster recovery solutions and reported on the results of these exercises and tests in the draft
CADE 2 Disaster Recovery Testing Reports Overview for Transition State 1, Enterprise Life
Cycle Milestone 4b. The main purpose of these exercises and tests was to verify, prior to the
implementation of the CADE 2, that CADE 2 disaster recovery solutions are ready for use.
Disaster recovery exercise and test results in the IRS’s report have confirmed the ability of these
two solutions to successfully replicate production data from the Martinsburg Computing Center

                                                                                              Page 6
                   Disaster Recovery Testing Is Being Adequately Performed,
                     but Problem Reporting and Tracking Can Be Improved



to the Memphis Computing Center recovery site. The following disaster recovery exercises and
tests were performed (in order of complexity).
      On October 20, 2011, the IRS performed a Table Top Exercise on gridding and Global
       Mirror replication procedures for recovering the Martinsburg Computing Center IMF and
       mainframe systems in the Memphis Computing Center recovery site. The exercise
       identified changes needed to disaster recovery procedures and other action items.
      In September 2011, the IRS performed a Functional Exercise on gridding replication.
       The exercise confirmed that virtual tape files initially sent and update files subsequently
       sent by the gridding solution in the Martinsburg Computing Center were successfully
       received by the gridding solution in the Memphis Computing Center recovery site.
      On October 7, 2011, the IRS completed a Functional Exercise on Global Mirror
       replication. The exercise confirmed that test volumes for the Martinsburg Computing
       Center IMF and mainframe systems initially sent and update files subsequently sent by
       Global Mirror in the Martinsburg Computing Center were successfully received by the
       Memphis Computing Center recovery site.
      On November 4, 2011, the IRS completed a Disaster Recovery Test on gridding and
       Global Mirror replication. The test confirmed the ability to restore the Martinsburg
       Computing Center IMF and mainframe systems in the Memphis Computing Center
       recovery site using gridding and Global Mirror file replication.
The IRS has also performed an initial disaster recovery test of the CADE 2 database as it was
being loaded. In late November 2011, the IRS performed a test which confirmed that the files
were backed up and reconciled. The IRS reported that the test successfully compared production
files to recovery files and matched record counts to confirm the backed up files.
The IRS is planning to conduct a Computing Center to Computing Center disaster recovery test
in Calendar Year 2012, at which time the CADE 2 production system in the Martinsburg
Computing Center will be tested for recovery in the Memphis Computing Center recovery site.

Disaster Recovery Test Problem Reporting and Tracking Can Be
Improved
NIST, Department of the Treasury, and IRS disaster recovery testing policies and requirements
cite the need to report on testing problems and the status of testing processes and to track
recommendations to improve disaster recovery capabilities. The IRS can improve the following
areas of disaster recovery test problem reporting and tracking during the execution phase of
disaster recovery tests.
      Problem tickets used by the IRS for identifying, resolving, and tracking problems
       encountered during the tests were not created for many problems.

                                                                                             Page 7
                   Disaster Recovery Testing Is Being Adequately Performed,
                     but Problem Reporting and Tracking Can Be Improved



      Reports prepared by the IRS during the disaster recovery tests to track the progress and
       problems encountered in recovering systems did not have complete information on many
       of the problems and the processes run during the test.
      The IRS did not have a process for closely and formally tracking the implementation of
       the less serious recommendations made at the conclusion of the disaster recovery tests.

Information Technology Asset Management System (ITAMS) ticket reporting and
Test Case Daily Action Reports can be improved
NIST Special Publication 800-84 states that reporting on disaster recovery testing should
determine how well tested systems or components functioned. The introduction to the disaster
recovery testing report should document background information about the test, such as the
scope, objectives, and tests. The report should also document observations made by the test team
during the test, lessons learned during the test, and recommendations for enhancing the disaster
recovery plan that had its components or systems tested, along with associated procedures and
components.
Internal Revenue Manual 10.8.62 requires that several reports be completed before, during, and
after disaster recovery testing. These reports evaluate disaster recovery test results and identify
weaknesses and corrective actions to improve IRS preparedness.
   1. The Test Case Daily Action Report contains the overall disaster recovery test objectives
      for each system to be recovered; the specific steps that will be performed for each
      system; test cases for each system specifying equipment and personnel needs, goals,
      success (outcome) criteria, and deliverables; and the designation of the disaster recovery
      site executive as the person to decide an early termination and termination criteria. A
      completed Test Case Daily Action Report should indicate the start and stop time of each
      process, file, or job run; whether it was completed with or without interruption; a
      description of the interruption; a description of the corrective action used to complete the
      interruption; and whether a problem encountered in performing a test case required an
      update to the disaster recovery plan. The Test Case Daily Action Report is prepared by
      Enterprise Operations organization staff during the disaster recovery test.
   2. The Vulnerabilities Matrix Report is prepared by the Cybersecurity organization and
      contains information on the problems that were reported in ITAMS tickets during the
      disaster recovery test. The ITAMS is a centralized database for incident management.
      The IRS requires that ITAMS tickets be created for all problems that occur during a
      disaster recovery test so that problems can be properly identified, resolved, and tracked,
      and disaster recovery plans can be revised if needed. The IRS also requires that ITAMS
      tickets created during a disaster recovery test contain detailed problem and problem
      resolution descriptions. Disaster scenario scripts that the IRS uses during disaster
      recovery tests stress that ITAMS tickets must contain detailed problems and resolutions.

                                                                                              Page 8
                   Disaster Recovery Testing Is Being Adequately Performed,
                     but Problem Reporting and Tracking Can Be Improved



       The ITAMS was replaced with the Knowledge, Incident/Problem, Service and Asset
       Management system (KISAM) on October 1, 2011.
   3. The Detailed Daily Observation Report is prepared by the Cybersecurity organization
      and contains detailed recordings of the daily status meetings that take place during the
      disaster recovery test. It also contains other observations.
   4. The Executive Overview Report is prepared by the Cybersecurity organization and
      contains the disaster recovery test’s scenario, overall recovery results, recovery
      directives, test objectives, scope, accomplishments, findings, recommendations, and
      actions needed to correct weaknesses to specific computer systems.
The Detailed Daily Observations Report for the July 2011 disaster recovery test and the Draft
Detailed Daily Observations Report for the August 2011 test contained substantial notes on the
daily status meetings that took place on each day of the recovery, covered the discussions on
each system that was being recovered, and contained Cybersecurity organization observations.
The Executive Overview Report for the July 2011 disaster recovery test and the Draft Executive
Overview Report for the August 2011 test contained key information on the test’s scope,
objectives, tests, observations, lessons learned/findings, and recommendations, as suggested in
NIST Special Publication NIST 800-84.
While the IRS prepared 46 ITAMS tickets during the August and October 2011 disaster recovery
tests, tickets were not prepared for 10 problems. For eight of the 10 problems, the Test Case
Daily Action Report indicated a problem, but an ITAMS ticket had not been prepared.
Many problems reported in Test Case Daily Action Reports and ITAMS tickets shown in the
Vulnerabilities Matrix and Shift Turnover Reports for the July and August 2011 tests did not
adequately describe the problems or interruptions that occurred or describe how the problems or
interruptions were resolved. For example, the IRS prepared 105 ITAMS tickets during these two
disaster recovery tests, but 20 tickets did not contain adequate descriptions of the problems or
interruptions or describe how they were resolved. Sixty-four problems reported in the Test Case
Daily Action Reports for these two tests did not contain adequate descriptions of the problems or
interruptions or describe how they were resolved.
Other sections of the Test Case Daily Action Reports for the July and August 2011 disaster
recovery tests were also incomplete. For 178 of the processes and jobs listed in the Test Case
Daily Action Reports, there was no indication whether the processes or jobs were or were not
completed or were completed with or without an interruption. For 111 of the processes or jobs
listed in the Test Case Daily Action Reports that encountered a problem, there was no indication
whether an update to the disaster recovery plan was or was not needed.
ITAMS tickets were not prepared and ITAMS tickets and Test Case Daily Action Reports were
incomplete because they are prepared during the disaster recovery test. At this time, the
technical employees who prepare these reports are concentrating on performing steps necessary

                                                                                           Page 9
                        Disaster Recovery Testing Is Being Adequately Performed,
                          but Problem Reporting and Tracking Can Be Improved



to continue recovering the systems. These reports are generally available at the completion of
the disaster recovery test and are not revised or updated after the test is completed. Another
reason why ITAMS tickets were not prepared could be that the template for the Test Case Daily
Action Report lacks a column for entering the ITAMS ticket number related to a test case
problem or for providing a reason why a ticket is not needed. Such a column would facilitate a
repetitive process for creating necessary ITAMS tickets. Such a column would also be helpful in
understanding the problems and the corrective actions because it would create the ability to
associate a problem in the Test Case Daily Action Report to an ITAMS ticket that might have
additional information on the same problem. The Test Case Daily Action Report for the
July 2011 disaster recovery test contained references to some of the ITAMS tickets that had been
prepared. During the May 2011 disaster recovery test, participants were reminded that if a run or
job in a test case has a problem, the related ITAMS ticket number should be included in the Test
Case Daily Action Report. Therefore, it appears that the need to put ITAMS ticket numbers on
the Test Case Daily Action Report has been at least anecdotally recognized.
If ITAMS tickets are not created and problem reporting is not improved, the risk increases that
disaster recovery problems might not be properly identified, resolved, and tracked. In addition,
disaster recovery test planners will have less information to review when they begin planning for
the next disaster recovery test.

Report recommendations to address some disaster recovery test problems are
not closely or formally monitored
Treasury Directive Publication 85-01, Treasury Information Technology Security Program,
requires that bureaus have a process to track information technology security weaknesses and
actions to correct them. Internal Revenue Manual 10.8.60, Information Technology Security,
Information Technology Disaster Recovery Policy and Guidance,8 requires that the IRS track and
document findings and lessons learned and ensure that corrective action plans are implemented
and findings are resolved.
The Cybersecurity organization does not closely or formally track the completion of all of the
recommendations it makes in disaster recovery test Executive Overview Reports. The most
serious recommendations are entered into the Plan of Action and Milestones tracking system, but
less serious recommendations are not entered into a tracking system. Many of the
recommendations in the Executive Overview Reports are not Plan of Action and Milestone type
recommendations. Weekly meetings are held between Enterprise Operations and Cybersecurity
organization staff, at which time they can discuss the recommendations and long-term
issues/problems.




8
    IRM 10.8.60 (Jun. 1, 2009).
                                                                                         Page 10
                   Disaster Recovery Testing Is Being Adequately Performed,
                     but Problem Reporting and Tracking Can Be Improved



The Cybersecurity organization does not have a template for tracking the completion of some
disaster recovery test corrective actions nor a matching standardized process to ensure that
tracking is implemented continuously and on a repeatable basis.
When all disaster recovery test recommendations are not formally tracked, the risk increases that
corrective actions may not be adequately addressed. Without a formal tracking template and
process, the resources, time periods, and current status of the corrective actions might not be
adequately defined and accomplished.
Management Action: During the course of the audit, we informed Cybersecurity organization
staff of the need for an additional worksheet for tracking corrective actions. Cybersecurity staff
developed a worksheet for this purpose, provided the worksheet to us for our review, and made
modifications based on our suggestions. The worksheet was also vetted at a weekly disaster
recovery test collaboration meeting, and the Cybersecurity organization staff plans to populate
the worksheet with past test recommendations and update it during weekly meetings.

Recommendations
Recommendation 1: The Associate Chief Information Officer, Cybersecurity, should revise
the Test Case Daily Action Report template to include an ITAMS/KISAM ticket column that
would require the entry of the ITAMS/KISAM number for all problems reported on the Test
Case Daily Action Report or a reason why an ITAMS/KISAM ticket is not required.
       Management’s Response: The IRS agreed with our recommendation. The IRS
       revised the Test Case Daily Action Report to include columns indicating run interruption,
       ITAMS/KISAM ticket number, and a reason why an ITAMS/KISAM ticket is not
       required.
Recommendation 2: The Associate Chief Information Officer, Cybersecurity, should create a
process for reviewing the completeness of ITAMS/KISAM tickets and Test Case Daily Action
Reports immediately after the disaster recovery test is completed so that the test staff can provide
any missing information before reporting back to their regular duties.
       Management’s Response: The IRS agreed with our recommendation. The IRS
       developed a process for reviewing the completeness of ITAMS/KISAM tickets and Test
       Case Daily Action Reports.




                                                                                           Page 11
                         Disaster Recovery Testing Is Being Adequately Performed,
                           but Problem Reporting and Tracking Can Be Improved



                                                                                       Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to observe IRS disaster recovery testing to determine
whether the IRS is adequately testing its capability to recover major computer systems from one
Computing Center1 to another and whether systems can be successfully recovered. To
accomplish our objective, we:
I.         Obtained and reviewed guidance and criteria on disaster recovery testing.
II.        Determined if the IRS adequately planned the July, August, and October 2011 disaster
           recovery tests.
           A. Obtained and became familiar with the IRS Disaster Recovery Test Plan.
           B. Determined if the Disaster Recovery Test Plan was adequately completed and that
              planned test cases were properly created in the Test Case Daily Action Reports.
           C. Determined which computers and storage at the recovery site were used in the
              recovery test to ensure that disaster recovery testing was conducted in as close to an
              operational environment as possible.
           D. Obtained and reviewed disaster recovery planning documents for the CADE 2.
III.       Observed the August and October 2011 disaster recovery tests to review disaster recovery
           testing procedures.
           A. Observed during testing whether the Disaster Recovery Test Plan and planned test
              cases were followed and whether ITAMS tickets were prepared for problems
              encountered in performing the test cases.
           B. Determined if any part of the Disaster Recovery Test Plan or planned test cases were
              not tested as planned based on observations, meeting attendance, and reports issued
              after the test.
           C. Observed whether various disaster recovery testing procedures, instructions, and
              requirements were followed.




1
    See Appendix IV for a glossary of terms.
                                                                                              Page 12
                   Disaster Recovery Testing Is Being Adequately Performed,
                     but Problem Reporting and Tracking Can Be Improved



IV.    Observed disaster recovery tests and reviewed disaster recovery testing reports for the
       July and August 2011 disaster recovery tests to determine if systems were successfully
       recovered.
       A. Determined if recovered systems were tested to the point that users could use the
          system, jobs could be run, and other systems could exchange data with them.
       B. Determined if any systems were recovered but not within stated recovery time
          objectives.
       C. Determined if any systems were recovered but with problems (other than not meeting
          recovery time objectives).
       D. Determined if any systems were not completely recovered and why.
V.     Reviewed IRS reports on the results of disaster recovery testing for the July and
       August 2011 disaster recovery tests.
       A. Determined if a debriefing was held at the end of the disaster recovery test.
       B. Obtained and reviewed IRS reports for evaluating test results and identifying
          weaknesses and corrective actions to improve IRS preparedness. These reports
          included the Test Case Daily Action Report, Detailed Daily Observation Report,
          Vulnerabilities Matrix, and Executive Overview Report.
       C. Determined if the reports appeared to cover all the key issues or problems that we
          learned of during our observations of the test, attendance at meetings, or otherwise
          reported in disaster recovery reporting documentation.
       D. Determined the IRS managers and executives who these reports were presented to.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Cybersecurity organization’s policies,
procedures, and practices for planning, conducting, and reporting on disaster recovery tests. We
evaluated these controls by interviewing staff of the Cybersecurity organization, observing
disaster recovery tests, and reviewing plans and reports the IRS prepared on its disaster recovery
tests.




                                                                                           Page 13
                  Disaster Recovery Testing Is Being Adequately Performed,
                    but Problem Reporting and Tracking Can Be Improved



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny Verneuille, Director
Carol Taylor, Audit Manager
Myron Gulley, Acting Audit Manager
Richard Borst, Senior Auditor
Chinita Coates, Auditor
Anthony Morrison, Program Analyst




                                                                                     Page 14
                 Disaster Recovery Testing Is Being Adequately Performed,
                   but Problem Reporting and Tracking Can Be Improved



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer for Operations OS:CTO
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Associate Chief Information Officer, Modernization Program Management Office OS:CTO:MP
Director, Security Risk Management OS:CTO:C:SRM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                               Page 15
                   Disaster Recovery Testing Is Being Adequately Performed,
                     but Problem Reporting and Tracking Can Be Improved



                                                                             Appendix IV

                            Glossary of Terms

Term                       Definition
Batch Processing           The execution of a series of programs or jobs on a computer with
                           minimal human interaction.
Computing Center           IRS sites that support tax processing and information management
                           through a data processing and telecommunications infrastructure.
Customer Account Data      The next step in the IRS’s information technology modernization
Engine 2                   efforts. The CADE 2 will provide faster refunds for millions of
                           individual taxpayers and faster payment postings, account updates,
                           and taxpayer notices. The CADE 2 will be implemented in a
                           phased approach.
Cybersecurity              Manages the IRS’s Information Technology Security program. It
Organization               is responsible for ensuring compliance with Federal statutory,
                           legislative, and regulatory requirements governing measures to
                           assure the confidentiality, integrity, and availability of IRS
                           electronic systems, services, and data. It is within the
                           Modernization and Information Technology Services
                           organization.
Enterprise Life Cycle,     A structured business system development method that requires
Milestone 4B               the preparation of specific work products during different phases
                           of the development process. Enterprise Life Cycle Milestone 4B
                           is the completion of the System Development Phase, which is the
                           first phase after the Design Phase. After Milestone 4B, the
                           System Deployment Phase begins.
Enterprise Operations      Provides server and mainframe computing services for all IRS
Organization               business entities and taxpayers.
Filing Season              The period from January through mid-April when most individual
                           income tax returns are filed.
Fiscal Year                A 12-consecutive-month period ending on the last day of any
                           month, except December. The Federal Government’s fiscal year
                           begins on October 1 and ends on September 30.

                                                                                     Page 16
                     Disaster Recovery Testing Is Being Adequately Performed,
                       but Problem Reporting and Tracking Can Be Improved




Term                         Definition
Functional Exercises         Exercises in which recovery personnel execute their roles in a
                             simulated operational environment. Functional exercises involve
                             retrieving, loading, and validating backup tapes and files.
Individual Master File       The IRS database that maintains transactions or records of
                             individual tax accounts.
National Institute of        A part of the Department of Commerce that is responsible for
Standards and Technology     developing standards and guidelines for providing adequate
                             information security for all Federal Government agency
                             operations and assets.
Office of Management and     The office within the Executive Office of the President that helps
Budget                       executive departments and agencies implement the commitments
                             and priorities of the President.
Plan of Action and           A management process that outlines security weaknesses
Milestones                   pertaining to a specific system and the steps that need to be taken
                             to remediate them. It details resources required to accomplish the
                             milestones in meeting the task and scheduled completion dates for
                             the mitigation.
Recovery Time Objective      The maximum amount of time a system can remain unavailable
                             before there is an unacceptable impact on other systems or
                             supported business processes.
Table Top Exercises          Exercises that are discussion based and take place in a classroom
                             setting. Participants use disaster recovery plans to discuss how
                             they would respond to a disruption scenario.




                                                                                          Page 17
     Disaster Recovery Testing Is Being Adequately Performed,
       but Problem Reporting and Tracking Can Be Improved



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 18
Disaster Recovery Testing Is Being Adequately Performed,
  but Problem Reporting and Tracking Can Be Improved




                                                     Page 19
